Audit of the Central America Mitigation Initiative


Audit Report No. 1-515-05-006-P

March 21, 2005




              San Salvador, El Salvador
Office of Inspector General




March 21, 2005

MEMORANDUM

FOR:           USAID Office of Foreign Disaster Assistance/Costa Rica Senior
               Regional Advisor, Tim Callaghan

FROM:          RIG/San Salvador, Steven H. Bernstein “/s/“

SUBJECT:       Audit of the Central America Mitigation Initiative (Report
               No. 1-515-05-006-P)


This memorandum is our final report on the subject audit. This report does not
contain any recommendations for your action and does not include your comments
as none were provided to us.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                     5
Contents
           Background                                                             5

           Audit Objectives                                                       6

           Audit Findings                                                         7

                  Did Central America Mitigation Initiative activities achieve
                  planned results?                                                7

                  Were funds remaining under the Central America Mitigation
                  Initiative available for deobligation?                         11

           Evaluation of Management Comments                                     12

           Appendix I – Scope and Methodology                                    13




                                                                                      3
This page intentionally left blank.




                                      4
Summary of   The Regional Inspector General/San Salvador conducted this audit to determine if
Results      Central America Mitigation Initiative activities achieved planned results and if
             funds remained under the Central America Mitigation Initiative that were
             available for deobligation (page 6).

             Central America Mitigation Initiative activities achieved its planned results as
             follows: American Red Cross met or exceeded its targets on 14 of 29 indicators
             and was within 90 percent of the planned outputs on all indicators except for one;
             Catholic Relief Services met or exceeded its targets on all 16 indicators;
             Cooperative Assistance and Relief Everywhere met or exceeded its targets on all
             10 indicators; Cooperative Housing Foundation met or exceeded its targets on all
             8 indicators; and World Vision met or exceeded its targets on all 16 indicators
             (page 7).

             There was approximately $58,000 remaining under the Central America
             Mitigation Initiative from Catholic Relief Services that was available for
             deobligation. However, deobligation was pending the approval of the final
             indirect cost rate by USAID (page 11).

             We did not make any recommendations in this report.

             USAID Office of Foreign Disaster Assistance/Costa Rica did not provide any
             comments on the audit report.



Background   In October 1998, Hurricane Mitch swept through Central America causing
             devastating floods and mudslides, massive infrastructure and property destruction,
             and significant population displacement. Up to 10,000 people were killed, an
             estimated 3.6 million people were affected, and nearly 100,000 homes were
             completely destroyed. As part of the $630 million U.S. Government response,
             USAID Office of Foreign Assistance (OFDA) announced a three-year
             approximately $11 million Central America Mitigation Initiative (CAMI) for the
             region, with preference to the most severely affected countries of El Salvador,
             Guatemala, Honduras, and Nicaragua.

             The Central America Mitigation Initiative’s goal was to reduce or negate the
             impact of natural disasters in Central America by financing activities that increase
             the capability of regional, national, and community authorities and organizations
             to forecast, respond to, and prevent disasters. To carry out CAMI activities,
             USAID/OFDA authorized funds to non-governmental organizations, USAID’s
             missions, and other agencies/organizations as follows:




                                                                                               5
             Table 1: CAMI Funding Levels

                 Organization                                                    Amount
                                                                                Authorized
                 Non-Governmental Organizations
                      American Red Cross                                         $1,192,000
                      Catholic Relief Services                                    1,250,000
                      Cooperative Assistance and Relief Everywhere                1,625,000
                      Cooperative Housing Foundation                                925,000
                      World Vision                                                  401,000
                      Idaho Water Resources Research Institute                      300,000
                      Zamorano University                                           125,000
                      Total non-governmental organizations                       $5,818,000
                 USAID Missions
                      USAID/El Salvador                                             500,000
                      USAID/Guatemala                                               500,000
                      USAID/Honduras                                              1,500,000
                      Total USAID Missions                                       $2,500,000
                 Other Agencies/Organizations
                      U.S. Geological Survey                                     1,500,000
                      National Oceanic and Atmospheric Administration              875,000
                      Pan American Health Organization                             200,000
                      Total Other Agencies/Organizations                        $2,575,000
                 Total CAMI Funds Awarded                                      $10,893,000

             Note: Amounts for USAID’s missions, other agencies and organizations were not
             audited. All amounts were rounded to the nearest thousand.

             This audit covered CAMI activities performed by the five largest non-
             governmental organizations – American Red Cross, Catholic Relief Services,
             Cooperative Assistance and Relief Everywhere, Cooperative Housing Foundation,
             and World Vision during the period from February 2001 (the signing of the first
             implementing agreement) to August 2004 (the last implementer’s project end
             date). The total Central America Mitigation Initiative (CAMI) activities totaled
             approximately $11 million.



Audit        As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Objectives   Salvador performed this audit to answer the following questions:

             •    Did Central America Mitigation Initiative activities achieve planned results?

             •    Were funds remaining under the Central America Mitigation Initiative
                  available for deobligation?

             Appendix I describes the audit's scope and methodology.


                                                                                                  6
Audit Findings   Did Central America Mitigation Initiative activities achieve planned results?

                 Central America Mitigation Initiative activities achieved its planned results as
                 follows: American Red Cross met or exceeded its targets on 14 of 29 indicators
                 and was within 90 percent of the planned outputs on all indicators except for one;
                 Catholic Relief Services met or exceeded its targets on all 16 indicators;
                 Cooperative Assistance and Relief Everywhere met or exceeded its targets on all
                 10 indicators; Cooperative Housing Foundation met or exceeded its targets on all
                 8 indicators; and World Vision met or exceeded its targets on all 16 indicators
                 Results were measured through outputs. Planned outputs or indicators were
                 established in the grant proposals and progress reports. Tables 2 through 6
                 summarize the outputs planned and achieved by the end of the project for the five
                 largest implementing partners.

                 Table 2: American Red Cross’s Final Results

                                                                                As of April 2003
                                                                                                  Percent of
                     Indicators                                   Planned1         Actual         Target Met
                     Volunteers trained                                480               851             177%
                     Community residents trained                         0             4,641              N/A
                     Teachers trained (CUSE)2                          600               844             141%
                     Trainers trained                                    0                86              N/A
                     Teachers trained (other courses)                    0             1,022              N/A
                     Students trained                                    0             3,311              N/A
                     Others trained                                      0               600              N/A
                     Total people trained                                0            10,892              N/A
                     Total course participants                           0            17,566              N/A
                     Community emergency committees                     60                54              90%
                     Community volunteer brigades                      225               206              92%
                     Instruments for drills                              4                 5             125%
                     Community drills/simulations                      120               131             109%
                     Community risk maps/vulnerability                  60                54              90%
                     Community evacuation maps                          60                54              90%
                     Community household visits                          0             7,651              N/A




                 1
                   American Red Cross did not establish planned outputs for some indicators because it was
                 uncertain about the community response where activities took place.
                 2
                  CUSE or “Curso de Seguridad Escolar” is a course directed at school administrators and teachers
                 aimed to provide techniques in how to teach students to protect themselves in case a disaster
                 occurs at school.



                                                                                                               7
                                                               As of April 2003
                                                                                  Percent of
    Indicators                                      Planned         Actual        Target Met
    School emergency committees                              60         110             183%
    School brigades                                         270         502             186%
    School risk maps/vulnerability                           60          87             145%
    School evacuation maps                                   60          87             145%
    School instruments for drills                             4            4            100%
    School drills/simulations                               120         378             315%
    Chapter instruments for drills                            4            4            100%
    Chapter drills/simulations                               24          31             129%
    Emergency operations centers fully
    equipped                                                  12           11             92%
    Emergency operations centers fully
    operational                                             12             2              17%
    Educational materials                                   13            13             100%
    Mitigation projects                                     52            51              98%
    Beneficiaries                                       80,000       115,857             145%

Note: Actual results were not audited.3 Actual results were obtained from
American Red Cross’s last progress report.

Table 3: Catholic Relief Services’s Final Results

                                                            As of August 2003
                                                                             Percent of
    Indicators                                      Planned       Actual    Target Met
    Hiring regional coordinators, disaster
    prevention coordinators and community
    facilitators                                             30            31            103%
    Selection of communities                                329           340            103%
    Identification of leaders and community
    organizations                                           329           340            103%
    Strengthening and/or formation of local
    emergency committees                                    329           340            103%




3
  American Red Cross’s results were not audited because its offices in Guatemala, Honduras, and
Nicaragua were closed at the time of the audit. The office directors in those countries who were
involved with the Central America Mitigation Initiative were either no longer with the
organization or not available to provide the documentation needed for the audit. However,
interviews with American Red Cross’ officials in Washington and in El Salvador and interviews
with officials from USAID/Costa Rica did not raise any concerns that the actual results reported
were not accurate. Moreover, we were able to review supporting documentation and determine
the completeness of all selected mitigation projects performed by American Red Cross. As a
result, we were able to achieve a substantial level of comfort and were able to fully answer the
audit objective.



                                                                                              8
                                                          As of August 2003
                                                                        Percent of
 Indicators                                        Planned Actual      Target Met
 Training Emergency Action Committees                   329      340         103%
 Completion of community emergency action
 plans                                                 329      340         103%
 Community emergency action committee
 meetings to share action plan with community          324      323           99%
 Emergency drills and simulations in
 communities                                            70       70         100%

 Installation of early warning systems                  16       23        144%
 Community training on use and maintenance of
 the systems                                            16       23        144%
 Training of Catholic Relief Services and its
 local partner staff in disaster mitigation,
 prevention and response                                69      170         246%
 Broadcasting spots on Catholic Radio or other
 local stations                                         48       48         100%
 Public education activities focused on disaster
 mitigation and prevention (Number of forums)           27       30         111%
 Implementation of an orientation program on
 disaster mitigations and prevention for primary
 school teachers                                        20    1,990        9,950%
 Implementation of an orientation program on
 disaster mitigations and prevention for primary
 school children                                       200    2,650        1,325%
 Establish evacuation routes and install
 evacuation route signs                                 30       50         167%

Table 4: Cooperative Assistance and Relief Everywhere’s Final Results

                                                         As of August 2004
                                                                       Percent of
 Indicators                                        Planned Actual Target Met
 Municipalities that have identified risk
 scenarios, agreed on solutions, and improved
 disaster response capabilities                         11       20         182%
 Percent of key organizations that have adopted
 the risk management approach                           50      100         200%
 Number of persons sensitized & trained in
 workshops process in eleven municipalities           1,800    1,820        101%
 Trained country coordinator in risk management
 and disaster response as part of national and
 regional technical units                                4        4         100%
 Local risk management systems consolidated
 (Number of municipalities)                             20       20         100%



                                                                                  9
                                                          As of August 2004
                                                                        Percent of
 Indicators                                         Planned Actual Target Met
 Municipalities incorporate risk management
 concepts and practices                                  20       20         100%
 Municipalities carry out significant, socially
 prioritized risk reduction activities                   20       20         100%
 Municipalities have incorporated improvements
 in disaster response preparations                       20       20         100%
 Events to disseminate experiences and best
 practices                                               20       20         100%
 Schools per municipality have incorporated risk
 management elements either formally or
 informally within their education programs               8        8         100%

Table 5: Cooperative Housing Foundation’s Final Results

                                                        As of January 31, 2003
                                                                       Percent of
 Indicators                                         Planned Actual Target Met
 Number of municipalities and communities with:         149      182          122%
 local risk analyzed; vulnerabilities identified;
 plans for local response; resources identified;
 mitigation measures identified; and awareness
 programs in schools
 Number of beneficiaries (rural)                     63,445 108,056          170%
 Number of beneficiaries (urban)                     61,000 64,015           105%
 Number of informal settlements and number of             6       6          100%
 public-private risk management initiatives
 identified
 Number of mitigation projects implemented              106     111          105%
 Number of students                                   8,700 24,426           281%
 Number of teachers                                      70      75          107%
 Number of indirect beneficiaries                    17,400 113,580          653%

Table 6: World Vision’s Final Results

                                                       As of December 31, 2003
                                                                       Percent of
 Indicators                                         Planned Actual Target Met
 Risk and resource mapping (Communities)                 222     224         101%
 Mitigation capacity building training                   222     224         101%
 Capacity-building for risk monitoring and early
 warning systems and evacuation                          222      224         101%
 Capacity-building for risk monitoring and early
 warning systems and evacuation --Area
 Development Programs (ADP)                               13       13         100%
 Capacity-building regional offices with early
 warning and evacuation capacity                           3        3         100%

                                                                                 10
                                                   As of December 31, 2003
                                                                     Percent of
  Indicators                                   Planned     Actual    Target Met
  Damage and Needs Assessment/Evaluation
  on Damages and Needs Assessment
  (DANA/EDAN) capacity building
  (communities)                                      222         224         101%
  DANA/EDAN capacity building -- ADP                  13          13         100%
  DANA/EDAN regional offices with early
  warning and evacuation capacity                      3            3        100%
  Data processing and analysis capacity
  building for communities                           222         224         101%
  Data processing and analysis capacity
  building for regional offices with early
  warning and evacuation capacity                      3            3        100%
  Basic capacities building of the Rapid
  Response Teams (RRT)                               222         224         101%
  First aid training to community members            222         224         101%
  Evacuation and rescue training for members
  of the three RRTs                                   18           18        100%
  Evacuation and rescue training for members
  of the Yoro regional office                          6            6        100%
  Logistic training to all ADPs                       13           13        100%
  Logistic training to all regional offices            3            4        133%

American Red Cross, Catholic Relief Services, and Cooperative Assistance and
Relief Everywhere conducted Central America Mitigation Initiative (CAMI)
activities in El Salvador, Nicaragua, Guatemala, and Honduras. Cooperative
Housing Foundation conducted CAMI activities in El Salvador, Guatemala, and
Honduras, and World Vision only conducted CAMI activities in Honduras.

Because all of the actual outputs met or exceeded planned outputs for Catholic
Relief Services, Cooperative Assistance and Relief Everywhere, Cooperative
Housing Foundation, and World Vision, and more than 90 percent of the actual
outputs met at least 90 percent of the targeted outputs for American Red Cross at
the end of the project, we concluded that the Central American Mitigation
Initiative activities achieved planned results.

Were funds remaining under the Central America Mitigation Initiative
available for deobligation?

There was approximately $58,000 remaining under the Central American
Mitigation Initiative from Catholic Relief Services that was available for
deobligation. However, deobligation was pending the approval of the final
indirect cost rate by USAID. The final indirect cost rate is determined through
negotiations between the grantee and USAID. The final negotiated rate can take
from a few months up to a few years to finalize. If the final indirect cost rate is

                                                                                11
                lower than the provisional indirect cost rate established in the grant agreement
                between Catholic Relief Services and USAID, the funds remaining will be
                deobligated. If the final indirect cost rate is higher than the provisional rate,
                Catholic Relief Services will be able to recover the amount of the difference up to
                the amount of the remaining funds. We are not making a recommendation at this
                time because Catholic Relief Services and USAID were aware of the remaining
                funds and the pending approval of the final indirect cost rate. The table below
                summarizes the funding levels authorized and remaining for each implementing
                partner as of August 31, 2004 (the last implementer’s project end date):

                Table 7: Funding Levels Authorized and Remaining

                                                                       As of August 31, 2004
                  Implementing Partner                                 Funding       Funding
                                                                      Authorized   Remaining
                  Catholic Relief Services                             $1,250,000       $58,000
                  American Red Cross                                    1,192,000             0
                  Cooperative Assistance and Relief Everywhere          1,625,000             0
                  Cooperative Housing Foundation                          925,000             0
                  World Vision                                            401,000             0
                  Totals                                               $5,393,000       $58,000

                Note: Amounts rounded to the nearest thousand.



Evaluation of   USAID Office of Foreign Disaster Assistance/Costa Rica did not provide any
Management      comments on the audit report.
Comments




                                                                                                12
                                                                                        Appendix I


Scope and     Scope
Methodology
              We audited the Central America Mitigation Initiative activities in accordance with
              generally accepted government auditing standards. We were unable to audit
              American Red Cross’s final results because its offices in Guatemala, Honduras,
              and Nicaragua were closed. The office directors in those countries who were
              involved with the Central America Mitigation Initiative were either no longer
              with the organization or not available to provide the documentation needed for the
              audit. However, interviews with American Red Cross’ officials in Washington
              and in El Salvador and interviews with officials from USAID/Costa Rica did not
              raise any concerns that the actual results reported were not accurate. Moreover,
              we were able to review supporting documentation and determine the
              completeness of all selected mitigation projects performed by American Red
              Cross. As a result, we were able to achieve a substantial level of comfort and
              were able to fully answer the audit objective.

              We conducted the audit at USAID Office of Foreign Disaster and Assistance
              (OFDA)/Costa Rica from August 26, 2004 to September 1, 2004 and various
              implementing partner offices in El Salvador, Guatemala, Nicaragua, and
              Honduras from October 4, 2004 to October 13.      Additional fieldwork was
              conducted from December 15, 2004 to December 22, 2004 in El Salvador. The
              audit covered the period from February 2001 (the signing of the first
              implementing agreement) to August 2004 (the last implementer’s project end
              date).

              The audit focused on whether the Central America Mitigation Initiative activities
              achieved planned results and whether funds remained under the Central America
              Mitigation Initiative that were available for deobligation. We assessed OFDA’s
              internal controls related to monitoring the Central America Mitigation Initiative
              activities. Specifically, we assessed its controls for receiving and reviewing progress
              and financial reports, performing site visits, and monitoring the quality and
              timeliness of outputs.

              Methodology

              We assessed the mission’s risk exposure and effectiveness of its internal controls in
              order to determine the extensiveness of site visits necessary to validate outputs
              achieved. Following this assessment, we judgmentally selected the five largest
              implementing partners based on dollar values to answer the audit objectives. The
              five implementing partners selected were American Red Cross, Catholic Relief
              Services, Cooperative Assistance and Relief Everywhere, Cooperative Housing
              Foundation, and World Vision. The total Central America Mitigation Initiative
              (CAMI) activities totaled approximately $11 million. Audit coverage for the
              implementing partners selected was approximately $5.4 million or 93 percent of the
              total non-governmental organizations and 53 percent of the total CAMI funded


                                                                                                  13
                                                                      Appendix I

project. We did not include other U.S. agencies, international organizations, and
USAID’s missions who also received CAMI funds in our audit.

For the implementing partners selected, we visited their offices in El Salvador,
Guatemala, Nicaragua, and Honduras. As noted in footnote 3 on page 8, the
offices of American Red Cross in Guatemala, Honduras and Nicaragua had been
closed. The actual results presented above for American Red Cross were obtained
from American Red Cross’ last progress reports.

In addition, we verified the completion of 30 mitigation projects randomly
selected from American Red Cross, Catholic Relief Services, and Cooperative
Housing Foundation. Cooperative Assistance and Relief Everywhere and World
Vision did not have mitigation projects.

To answer audit objective one, we reviewed supporting documentation such as
award documents, progress reports, activity reports, participant training records,
community records, lists of itemized projects and products, and interviewed OFDA
officials, consultants, and implementing partners’ regional advisors and staff.

In verifying the completion of the 30 mitigation projects, we reviewed invoices,
purchase orders, and photographs.

To answer audit objective two, we reviewed final financial status reports and
internal financial documents provided by the awardees.

Because all of the actual outputs met or exceeded planned outputs for Catholic
Relief Services, Cooperative Assistance and Relief Everywhere, Cooperative
Housing Foundation, and World Vision, and more than 90 percent of the actual
outputs met at least 90 percent of the planned outputs for American Red Cross at
the end of the project, we concluded that the Central American Mitigation
Initiative activities achieved planned results.




                                                                               14
